HHS/OIG, Audit -"Audit of Medicaid Claims for Iowa Rehabilitation
Treatment Services Family-Centered Program,"(A-07-02-03023)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicaid Claims for Iowa Rehabilitation Treatment Services
Family-Centered Program," (A-07-02-03023)
July 6, 2004
Complete
Text of Report is available in PDF format (2.1 mb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the amounts claimed
by the State of Iowa for the Rehabilitative Treatment Services Family-Centered
Program met Medicaid reimbursement requirements in Federal fiscal year (FFY)
2001. Fifty-one of the 100 claims in our sample were unallowable because they
were not in compliance with applicable criteria, including the Iowa State plan
and the Iowa Administrative Code.  Of the 51 unallowable claims, 26 contained
more than 1 deficiency.  The unallowable claims occurred because the State
lacked adequate internal controls over the Family-Centered Program to ensure
proper delivery of services for Medicaid reimbursement.  As a result,
during FFY 2001, we estimate that the State claimed unallowable Federal Medicaid
funding totaling $2,536,187.  We recommended that the State (1) refund
$2,536,187 to the Federal Government, and (2) strengthen policies and procedures
to ensure that Medicaid payments are based on services directed exclusively
to the rehabilitative treatment needs of the child as defined in the Iowa State
plan and are provided in compliance with State and Federal regulations.